our notice, amendments will apply to your existing account
balance as well as to future transactions. The Credit Union can
delay enforcing any of its rights any number of times without
losing them.
16. Terminate This Agreement. Either the Credit Union or you may
terminate this Agreement at any time, but termination by you or the
Credit Union will not affect your obligation to pay the account balance
plus any FINANCE CHARGES and other charges you owe under this
Agreement. The cards you receive remain the property of the Credit Union
and you must recover and surrender to the Credit Union all cards upon
request or upon termination
of this Agreement whether by you or the credit union. Failure to
surrender your cards will result in a card recovery fee of $75 each,
should you attempt to use the cards.
17. Statements and Notices. You will receive a statement each month
showing transactions on your account. You are responsible for your
minimum monthly payment even in the event your statement is late or
returned to the Credit Union. Statements and notices will be
mailed to you at the most recent address you have given the Credit
Union. Notice sent to any one of you will be considered notice to all.
18. Cross Collateral. If cardholder has other loans from issuer,
or takes out other loans with issuer in the future, collateral
securing these loans, excluding any dwellings, will also secure
the Cardholder’s obligations under this agreement. Cardholder
agrees to pay all costs incurred by issuer in collecting
Cardholder’s indebtedness or in enforcing this agreement,
including attorney’s fees as may be reasonable and just and also
those costs, expenses and attorney’s fees incurred in appellate,
bankruptcy, and post-judgment proceedings.
19. Convenience Checks. Credit Card account Cardholders may
sometimes be issued personalized checks that can be used to access
your credit account without additional service charges other than the
accrual of FINANCE CHARGES. You can use your convenience checks to
purchase goods and services or to obtain
cash up to the amount of your credit line. Use of your checks will be a cash
advance on your VISA account. We are not required to honor a
convenience check that will cause you to exceed your Credit Line. We will
not pay a check if at the time the check is presented,
you are in default or we have suspended, terminated, or canceled
your Account. Checks may be used only by the person(s) whose
name(s) is on the VISA account. You are responsible for all
authorized use of your convenience checks. You may not use your
convenience checks to pay any amount which you owe us under
your account. Provided such request is timely, so that we shall have
a reasonable opportunity to act upon it under our rules, you may
order a stop payment on a convenience check drawn on your
account. We may, but shall not be obligated to receive such order
orally. In such event, the order shall be valid for only fourteen (14)
days thereafter unless confirmed in writing. Written stop payment
orders

will remain in effect only six (6) months unless renewed in writing.
You have the burden of establishing the fact and amount of loss
resulting from payment contrary to a binding stop payment.
Convenience checks are the property of the Credit Union. We
reserve the right to revoke them at any time. You agree to return
them at our request.
20. Honest Dealing. You will promptly notify the Credit Union of
any information that affects your credit worthiness or ability to
pay off the balance including but not limited to a change in
address or employment. You will not apply to increase the Credit
Line if you have reason to believe that you will be unable to
make the scheduled payments.
To find out about changes in the information in this application,
write us at IH Mississippi Valley Credit Union, 2500 River Drive,
Moline, IL 61265. Residents of Illinois may contact the Illinois
Department of Financial & Professional Regulation for
comparative information on interest rates, charges, fees and
grace periods. IDFPR, 320 W Washington St FL 3, Springfield, IL
62786: 888-473-4858.
YOUR BILLING RIGHTS:
KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Credit Services
PO Box 1010
Moline, IL 61266-1010

What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we
received your letter. We will also tell you if we have already corrected
the error.
2. Within 90 days of receiving your letter, we must either correct the
error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
· We cannot try to collect the amount in question, or report you as
delinquent on that amount.
· The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
· While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
· We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
· If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
· If we do not believe there was a mistake: You will have to pay the
amount in question, along with applicable interest and fees. We will
send you a statement of the amount you owe and the date payment
is due. We may then report you as delinquent if you do not pay the
amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you
must write to us within 10 days telling us that you still refuse to pay. If
you do so, we cannot report you as delinquent without also reporting
that you are questioning your bill. We must tell you the name of
anyone to whom we reported you as delinquent, and we must let those
organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first
$50 of the amount you question even if your bill is correct.

In your letter, give us the following information:
· Account information: Your name and account number.
· Dollar amount: The dollar amount of the suspected error.
· Description of problem: If you think there is an error on your bill,
describe what you believe is wrong and why you believe it is a
mistake.

Your Rights If You Are Dissatisfied With Your Credit Card Purchases

You must contact us:
· Within 60 days after the error appeared on your statement.
· At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you think
is wrong.

To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within
100 miles of your current mailing address, and the purchase
price must have been more than $50.
(Note: Neither of these are necessary if your purchase was based on
an advertisement we mailed to you, or if we own the company that
sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases
made with cash advances from an ATM or with a check that
accesses your credit card account do not qualify.

You must notify us of any potential errors in writing. You may call us,
but if you do we are not required to investigate any potential errors
and you may have to pay the amount in question.

3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at:
Credit Services
PO Box 1010
Moline, IL 61266-1010
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation we will tell you our
decision. At that point, if we think you owe an amount and you do not
pay, we may report you as delinquent.

Special Rules for Credit Card Purchases
If you have a problem with the quality of property or services
that you purchased with a credit card, and you have tried in
good faith to correct the problem with the merchant, you may
have the right not to pay the remaining amount due on the
property or services. There are two limitations on this right:
(a) You must have made the purchase in your home state, or if
not within your home state, within 100 miles of your current
mailing address; and
(b) The purchase price must have been more than $ 50. These
limitations do not apply if we own or operate the merchant,
or if we mailed you the advertisement for the property or
services.
READ AND RETAIN
Revised May 2020

If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not to
pay the remaining amount due on the purchase.

G -17957

IH Mississippi Valley Credit Union
CREDIT CARD AGREEMENT
This card is issued by IH Mississippi Valley Credit Union
(IHMVCU) pursuant to a license from Visa U.S.A. Inc.
The person who signed a Credit Card Application with IH
Mississippi Valley Credit Union and whose name is embossed on
a Credit Card issued by IH Mississippi Valley Credit Union, agrees
to the following terms and conditions in this Credit Card
Agreement.
CREDIT CARD AGREEMENT
Notice: See reverse side for important information
regarding your rights to dispute billing errors.
In this Agreement the words you and your mean each and all of those
who apply for the card or who sign the Credit Card application. Card
means the Credit Card and any duplicates and renewals we issue.
Everyone who receives, signs or uses a card issued under this Agreement
must be a member of this credit union. Account means your Credit Card
Line of Credit account with us. We, Us and ours means IH Mississippi
Valley Credit Union.
1. Responsibility. Use of the Card or Account will signify acceptance of
the terms of the Credit Card Agreement. If we issue you a card, you agree
to repay all debts, including purchases, advances, FINANCE CHARGES,
Late Charges, and collection costs arising from the use of the card and
the card Account by you or any other person you permit to use your
Account even
if that person exceeds your permission. For example, you are
responsible for charges made by yourself, your spouse and minor
children and this responsibility continues until the card is recovered. You
cannot disclaim responsibility by notifying us, but we will close the
account for new transactions if you so request in writing and return all
cards. Your obligation to pay the account balance continues even though
an agreement, divorce decree, or other court judgment to which we are
not a party may direct you or one of the other persons responsible to
pay the account. Any person using the card is jointly responsible with
you for charges he or she makes, but if that person signs the card, he or
she becomes a party to this Agreement and is also jointly responsible for
all charges on the account, including yours.
2. Lost Card Notification. If you believe the Card has been lost or stolen,
you will immediately call the Credit Union at (309) 793-6200 or (800) 7220333.

make on the account will restore your Credit Line by the amount of the
payment which is applied to the principal. You may request an increase in
your Credit Line only by written application to us, which must be
approved by our credit committee or loan officer. By giving you written
notice our credit committee may reduce your Credit Line from time to
time, or with good cause, revoke your card and terminate this
Agreement. Good cause includes your failure to comply with this
Agreement, or our adverse reevaluation of your credit-worthiness. You
also agree to advise us of any change in your financial condition which
may affect your credit worthiness.
You agree that you will update the credit information you have provided
us, from time to time, on our request.
5. Credit Information. You authorize us to investigate your credit
standing when opening, renewing or reviewing your account, and you
authorize us to disclose information regarding your account to credit
bureaus and other creditors who inquire of us about your credit
standing.
6. Monthly Payment. Every month you must pay at least the Minimum
Payment within 25 days of your statement closing date. By separate
agreement you may authorize us to charge the minimum payment
automatically to your share or share draft account with us. You may, of
course, pay more frequently, pay more than the Minimum Payment, or
pay the Total New Balance in full, and you will reduce the FINANCE
CHARGE by doing so. The Minimum Payment will be either (a) 2% of your
Total New Balance or $20, whichever is greater, or (b) your Total New
Balance, if it is less than $20 plus (c) any portion of the Minimum
Payment(s) shown on prior statement(s) which remain unpaid and the
Total of Account Penalties. In addition, at any time your Total New Balance
exceeds your Credit Line, you must immediately pay the excess upon our
demand.
7. Finance Charges.
7.1 Repayment Terms and Finance Charge Information
7.1.a. 9.9% APR Card-Fixed Rate Formula:
The Finance Charge is calculated using the following interest
rate: 9.9% ANNUAL PERCENTAGE RATE .825%
Monthly Periodic Rate, on the average daily balance. Default
Rate: increases to 14.9% ANNUAL PERCENTAGE RATE if minimum
payment is not received within 60 days after it is due, make a
payment that is returned or do either of the above on another
account that you have with us.

3. Updated Liability Rule for Unauthorized Use. Effective 4/4/2000,
Consumer liability for lost/stolen VISA cards is now $0 and the 48-hr time
frame to report lost/stolen VISA cards has been eliminated. The Credit
Union has the right to make exceptions
to the preceding conditions, if it can prove that you have been grossly
negligent. Such liability does not apply to electronic funds transactions

7.1.b. 11.9% APR Cash Back Card-Fixed Rate Formula: The
Finance Charge is calculated using the following interest rate:
11.9% ANNUAL PERCENTAGE RATE, .991% Monthly Periodic Rate,
on the average daily balance. Default Rate: increases to 16.9%
ANNUAL PERCENTAGE RATE if minimum payment is not received
within 60 days after it is due, make a payment that is returned or
do either of the above on another account that you have with us.

4. Credit Line. If we approve your application, we will establish a selfreplenishing Line of Credit for you and notify you of its amount when
we issue the card. You agree not to let the account balance exceeds this
approved Credit Line. Each payment you

7.1.c. 7.9% APR Relationship Card:
The Finance Charge is calculated using the following

interest rate: 7.9% ANNUAL PERCENTAGE RATE, .658%
Monthly Periodic Rate, on the average daily balance. This rate is
subject to meeting the requirements of establishing an account
relationship on your IH Mississippi Valley Credit Union member
account. You must have an active checking account with us and
one of the following four requirements included on your IH
Mississippi Valley Credit Union member account: mortgage loan,
home equity loan, automobile loan or have been a member with
us for a minimum of five years. Your member account will be
reviewed in advance of your card renewal. If the requirements are
not met, your rate will be calculated using the following nonqualifying interest rate: 9.9% ANNUAL PERCENTAGE RATE, .825%
Monthly Periodic Rate, on the average daily balance.
You will be notified at least 45 days in advance of this rate change.
Default Rate: increases to 12.9% ANNUAL PERCENTAGE RATE if
minimum payment is not received within 60 days after it is due,
make a payment that is returned or do either of the above on
another account that you have with us.
7.2 Finance Charge Calculation Method. In order to avoid a finance
charge on purchases made since your last statement date, you must pay
the total new balance shown on your statement within 25 days of the
statement closing date. Otherwise, FINANCE CHARGE on purchases and
on new purchases from the date they are posted to your account. Cash
advances are always subject to FINANCE CHARGE from the date they are
posted to your account FINANCE CHARGE (interest) is calculated at the
ANNUAL PERCENTAGE RATE, on the average daily principal balances of
purchases and cash advances in the account. The principal balances of
purchases and cash advances are determined each day during the
statement period, beginning with the principal portion of your
Previous Balances, reduced by payments you make and credits we apply,
and increased by purchases and cash advances you make and debit
adjustments we make during the statement period. The daily principal
balances are totaled, and divided by the number of days in the statement
period, to produce separate average daily principal balances for
purchases and cash advances to which the periodic rate is then applied.
The default rate applies to your account if we do not receive your minimum monthly payment within 60 days after it is due.
7.3 Default Rate. If your APRs are increased for any of the above listed
reasons, the Default APR may apply. If you successfully make at least six
timely minimum monthly payments after the Default APR goes into
effect, the APR will be reduced to the regular rate pursuant to your
Agreement with us.
8. Other Charges. If you are 10 days late in making a minimum monthly
payment, you will be charged a late fee. Your late fee will be one of the
following: a) $25.00 if your past due minimum payment
is $25.00 or more, b) equal to your past due minimum payment if
your past due minimum payment is less than $25.00. Returned
Check: $25.00. Card Replacement: $10.00. Draft copies: $6.00 Cash
Advances are subject to a cash advance fee of either $5.00 or 2%

of the amount of each transaction, whichever is greater. These fees will be
added to other amounts which are subject to a FINANCE CHARGE, as
described in the same manner as Cash Advances.

the United States. Display of a payment card logo by an online
merchant does not mean the Internet gambling transactions are lawful
in all jurisdictions in which you may be located.

The following transactions will be treated as cash advances:

11. Foreign Transactions. Purchases and cash advances made in foreign
countries and foreign currencies will be billed to you
in U.S. dollars. The conversion rate to dollars will be at (1) the
wholesale market rate or (2) the government mandated rate,
whichever is applicable, in effect on day prior to the processing date,
increased by one percent (100 basis points). The Credit Union has no
control over the conversion rate.

·
·
·
·

·

Using your Card to obtain cash from a participating Automated Teller
Machine (“ATM”);
Using your Card to obtain cash from a participating financial
institution;
Using a check drawn on the Account;
Obtaining money orders, travelers checks, foreign currency,
lottery tickets, casino chips, vouchers redeemable for cash or
similar items;
Balance Transfers

9. Default. You will be in default if you fail to make any minimum
payment or other required payment by the date that it is due. You will
be in default if you break any promise you make under this Agreement.
You will be in default if you die, file for bankruptcy or become insolvent,
that is, unable to pay your obligations when they become due. You will
be in default if you make any false or
misleading statements in any credit application or credit update. You will
also be in default when something happens which the Credit Union
believes may substantially reduce your ability to repay what you owe.
When you are in default, the Credit Union has the right to demand
immediate payment of your full account balance without notice. If
immediate payment is demanded, you will continue to pay FINANCE
CHARGE, at the periodic rate charged before default, until what you owe
has been paid and any shares that were given as security will be applied
towards what you owe. You agree to pay reasonable collection expenses,
including card recovery fee, court costs and/or collection agency fees and
costs to the extent allowed
by applicable laws or regulations. You understand that a contingency or
hourly fee arrangement may be established under an agreement entered
into by the Credit Union with a collection agency to collect amounts due
under this agreement if you are in default and you hereby agree that any
such fee arrangement is reasonable.
10. Using The Card. You may use the card issued to you to make purchases
in person, by mail, by telephone or over the Internet from merchants and
others who accept the VISA credit card. In addition, you may obtain cash
advances from the Credit Union, from other financial institutions
participating in the VISA program and from automated teller machines
(ATMs) that accept the VISA card (participate in the PLUS systems network).
Not all ATMs provide such access. The reverse side of your credit card
identifies any other ATM networks that you may access. You will need to use
your Personal Identification Number (PIN) to obtain a cash advance from an
ATM. The Credit Union is not responsible for the refusal of any merchant or
financial institution to honor the card. The daily limit for cash advances from
all participating ATMs is up to your available credit limit, but no more than
$998.00. Your VISA card may not be used for any illegal transaction. This
may include online gambling services
on the Internet. Internet gambling may be illegal in the jurisdiction in
which you, the cardholder, are located, including locations within

Effective April 2005, the exchange rate is a rate selected by VISA from the
range of rates available in wholesale currency markets for the applicable
central processing date, which rate may vary from the rate VISA itself
receives, or the government-mandated rate in effect for the applicable
central processing date, in each instance, plus or minus any adjustment
determined by the Credit Union.
12. Copies of Documentation. You will be charged a fee for each copy
of a draft or monthly statement that you request from us.
13. Plan Merchant Disputes. We are not responsible for the refusal of
any plan merchant or financial institution to honor your card. We are
subject to claims and defenses (other than tort claims) arising out of
goods or services you purchase with the card only if you have made a
good faith attempt, but have been unable to obtain satisfaction from
the plan merchant, and: (a) your purchase was made in response to an
advertisement we sent or participated in sending you; or (b) your
purchase cost more than
$50 and was made from a plan merchant in your state or within 100 miles
of your home. For other disputes you must resolve directly with the plan
merchant.
14. Security Interest. To secure your account, you grant us a purchase
money security interest under the Uniform Commercial Code in any
goods you purchase through the account. If you default, we have the
right to recover any of these goods which have not been paid for
through our application of your payments in the manner described in
Monthly Payment. You grant us a security interest in all individual and
joint share accounts and/
or deposit accounts you have with us now and in the future to secure
what you owe under the credit card agreement. When you are in
default, you authorize us to apply the balance in these accounts to
any amounts due. Shares and deposits in an Individual Retirement
Account, and any other account that would lose special tax treatment
under state or federal law if given as security are not subject to the
security interest you have given in your shares and deposits.
15. Effect of Agreement. This Agreement is the contract which applies
to all transactions on your account even though the sales, cash
advance, credit or other slips you sign or receive may contain different
terms. We may amend this Agreement from time
to time by sending you the advance written notice required by law. Your
use of the card thereafter will indicate your agreement to the
amendments. To the extent the law permits, and we indicate in

